Report No. D-2009-078      May 4, 2009




Health Care Provided by Military Treatment
Facilities to Contractors in Southwest Asia
Additional Information and Copies
To obtain additional copies of the report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms
ASD(HA)               Assistant Secretary of Defense (Health Affairs)
DBA                   Defense Base Act of 1941
DFAS                  Defense Finance and Accounting Service
DoD CFO               Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer
MTF                   Military Treatment Facility
QMAD                  Quantitative Methods and Analysis Division
USCENTCOM             U.S. Central Command
USD(AT&L)             Under Secretary of Defense (Acquisition, Technology, and Logistics)
                                    INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704




                                                                                 May 4, 2009

MEMORANDUM FOR DISTRIBUTION

SUBJECT: Health Care Provided by Military Treatment Facilities to Contractors in Southwest
         Asia (Report No. D-2009-078)


We are providing this report for your information and use. We performed this audit in response to
the requirements in Public Law 110-181, the FY 2008 National Defense Authorization Act,
Section 842, which requires the DoD Inspector General to audit DoD logistics contracts
suppmiing coalition forces in Iraq and Afghanistan.

We considered management comments on a draft of the repoli when preparing the final repmi.
All management comments conformed to the requirements of DoD Directive 7650.3; therefore,
additional comments are not required.

We appreciate the cOUliesies extended to the staff. Please direct questions to me at
(703) 604-8905.

                                         ~7~~
                                         Pal,lj J. Granetto
                                         Assistant Inspector General
                                         Readiness, Operations, and Suppoli
DISTRIBUTION:
UNDER SECRETARY OF DEFENSE (ACQUISITION, TECHNOLOGY,
   AND LOGISTICS)
UNDER SECRETARY OF DEFENSE (COMPTROLLER)/DOD CHIEF FINANCIAL
   OFFICER
COMMANDER, U.S. CENTRAL COMMAND
ASSISTANT SECRETARY OF DEFENSE (HEALTH AFFAIRS)
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT
   AND COMPTROLLER)
DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
DIRECTOR, JOINT STAFF
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
NAVAL INSPECTOR GENERAL
Report No. D-2009-078 (Project No. D2008-D000LF-0241.000)                            May 4, 2009


               Results in Brief: Health Care Provided by
               Military Treatment Facilities to Contractors in
               Southwest Asia
                                                          collection process in contingency operations.
What We Did                                               Implementing Recommendation 2 should
Our objectives were to determine whether                  improve internal controls for billing contractors.
(1) contract terms for health care provided by
military treatment facilities to contractors in           What We Recommend
Southwest Asia were adequately addressed, and             We recommend that the Under Secretary of
(2) controls for billing and collecting payment           Defense (Acquisition, Technology, and
from contractors for health care provided by              Logistics) ensure that contracts for contractor
military treatment facilities in Southwest Asia           personnel that are deployed outside the United
were adequate.                                            States include terms that adequately address
                                                          health care coverage and reimbursement.
What We Found
                                                          We recommend that the Under Secretary of
   Contract terms for health care provided by
                                                          Defense (Comptroller)/DoD Chief Financial
    military treatment facilities to contractors in
                                                          Officer continue to chair the working group
    Southwest Asia were not adequately
                                                          with officials from Components listed on the
    addressed. Based on a statistical sample of
                                                          back of this page to implement a billing system
    2,561 DoD contracts, we projected that
                                                          that is practical for U.S. Central Command.
    1,383, or 54 percent of the contracts had
    health care terms that were vague and
    subject to interpretation, or were silent on          Management Comments and
    health care terms.                                    Our Response
   Military treatment facilities were not billing        Management comments were responsive or
    and collecting payment from contractors for           satisfied the intent of the recommendations and
    health care provided. DoD internal controls           no additional comments are required. The
    were inadequate. We identified a material             Under Secretary of Defense (Acquisition,
    internal control weakness in billing and              Technology, and Logistics) agreed to adequately
    collecting payments from contractors that             address health care contract terms and stated
    receive health care from military treatment           that a pilot program is to be implemented at
    facilities in Southwest Asia.                         military treatment facilities using scanning
   Military treatment facilities in Southwest            devices to track contractor personnel usage in
    Asia may have provided health care billable           U.S. Central Command area of responsibility.
    in the millions without seeking                       The Under Secretary of Defense
    reimbursement. We did not project a                   (Comptroller)/DoD Chief Financial Officer
    potential monetary benefit. See page 20,              agreed to continue to chair the working group
    “Use of Computer-Processed Data” for more             seeking a common solution to the billing
    details.                                              challenge. All other Components, including
                                                          U.S. Central Command, the Assistant Secretary
During the audit, DoD officials from various              of Defense (Health Affairs), and the Joint Staff
organizations established a working group to              were responsive.
discuss how to implement a billing and


                                                      i
Report No. D-2009-078 (Project No. D2008-D000LF-0241.000)                May 4, 2009

Recommendations Table
Management                        Recommendations           No Additional Comments
                                  Requiring Comment         Required
Under Secretary of Defense                                  1., 2.
(Acquisition, Technology, and
Logistics)
Under Secretary of Defense                                  2.
(Comptroller)/DoD Chief
Financial Officer
U.S. Central Command                                        2.
Assistant Secretary of Defense                              2.
(Health Affairs)
Defense Finance and Accounting                              2.
Service
The Joint Staff                                             2.
Assistant Secretary of the Army                             2.
(Financial Management and
Comptroller)
Assistant Secretary of the Navy                             2.
(Financial Management and
Comptroller)
Assistant Secretary of the Air                              2.
Force (Financial Management
and Comptroller)
Surgeon General of the Army                                 2.
Surgeon General of the Navy                                 2.
Surgeon General of the Air                                  2.
Force




                                           ii
Table of Contents

Results in Brief                                                                    i

Introduction                                                                        1

       Objectives                                                                   1
       Background                                                                   1
       Review of Internal Controls                                                  3

Finding. Adequacy of the Contract Terms and Controls Over Billing for Health
Care Provided to Contractors in Southwest Asia                                      4

       Contract Terms for Health Care Provided to Contractors in Southwest Asia
         Were Vague and Subject to Interpretation                                   4
       Absence of Controls for Billing and Collecting Payment From Contractors
         for Health Care Provided in Southwest Asia                                 6
         Health Care Provided to Contractors by Medical Units in
            Southwest Asia                                                          7
         Reporting of Health Care Provided to Contractors                          10
         Roles and Responsibilities for Implementation and Oversight               10
       Conclusions                                                                 12
       Management Actions                                                          13
       Recommendations, Management Comments, and Our Response                      13

Appendices

       A. Scope and Methodology                                                    19
          Use of Computer-Processed Data                                           20
       B. Statistical Sample                                                       21
       C. Health Care Contract Terms by Specific Contract                          23
       D. Potential Average Monthly Billings for Contractor Visits by
             Military Treatment Facility Location                                  27

Management Comments

       A.   Under Secretary of Defense (Acquisition, Technology, and Logistics)    28
       B.   Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer   32
       C.   U.S. Central Command                                                   33
       D.   Assistant Secretary of Defense (Health Affairs)                        39
       E.   The Joint Staff                                                        44
       F.   Department of the Army                                                 46
       G.   Department of the Navy                                                 49
       H.   Department of the Air Force                                            52
Introduction
Objectives
Our audit objectives were to determine whether (1) contract terms for health care
provided by military treatment facilities (MTFs) to contractors in Southwest Asia were
adequately addressed, and (2) controls for billing and collecting payment from
contractors for health care provided by MTFs in Southwest Asia were adequate. See
Appendix A for the scope and methodology.

Background
Public Law 110-181, the FY 2008 National Defense Authorization Act, Section 842,
requires that the DoD Inspector General audit DoD logistics contracts supporting
coalition forces in Iraq and Afghanistan. This audit responds to that requirement.

U.S. Central Command (USCENTCOM) census data for the first quarter of FY 2008
stated that there were about 223,200 contractor personnel in USCENTCOM’s area of
responsibility. The contractor personnel were to perform a variety of contracted services
such as construction, security, vehicle maintenance and storage, and the removal of
hazardous material. Contractor personnel require support, which may include the use of
military billeting facilities, military post offices, military banking facilities, and medical
and dental services.




  Air Force surgeons working at Joint Base
                                                    A Navy dental officer extracting a tooth from
                 Balad, Iraq
                                                    a DoD contractor in the Kandahar Province,
     Photo courtesy of the U.S. Air Force
                                                                    Afghanistan
                                                       Photo courtesy of the U.S. Marine Corps

Title 10, United States Code §1079b, “Procedures for charging fees for care provided to
civilians; retention and use of fees collected,” requires the Secretary of Defense to
implement procedures under which an MTF may charge civilians who are not covered
beneficiaries (or their insurers) fees representing the costs of trauma and other medical
care provided. An MTF may retain and use the fees collected.



                                              1
DoD Instruction (DoDI) 3020.41, “Contractor Personnel Authorized to Accompany the
U.S. Armed Forces,” October 3, 2005, states that DoD may provide resuscitative care,
stabilization, hospitalization, and assistance with patient movement in emergencies where
loss of life, limb, or eyesight could occur. Primary medical or dental care1 is not
authorized and will not be provided by MTFs to contingency contractor personnel unless
specifically authorized under the terms of the contract and the corresponding letter of
authorization. All costs associated with both emergency and primary medical care are
reimbursable to the Government and are the responsibility of the contingency contractor
personnel, their employer, or their health insurance provider. Also, the Defense Federal
Acquisition Regulation Supplement 225.7402-4(a) states to use the clause 225.52-7040,
“Contractors Authorized to Accompany U.S. Armed Forces Deployed Outside the United
States,” in solicitations and contracts that authorize contractor personnel to accompany
U.S. Armed Forces deployed outside the United States. The clause mirrors
DoDI 3020.41 regarding contractor health care terms.

In July 2006, USCENTCOM issued Fragmentary Order 09-1038, “Contractor Care in the
USCENTCOM [Area of Responsibility],” which establishes guidance in accordance with
DoDI 3020.41. Furthermore, the fragmentary order states that USCENTCOM “…will
work with the Joint Staff and [Office of the Secretary of Defense] to establish a billing
mechanism utilizing the [Office of the Secretary of Defense] established outpatient and
inpatient rates for contingency operations as a basis for billing.”

On January 4, 2007, the Under Secretary of Defense (Comptroller)/DoD Chief Financial
Officer (DoD CFO) issued a memorandum establishing medical billing rates for
contractors deployed with U.S. Armed Forces. The established inpatient rate was $1,910
per day, and the outpatient rate was $184 per visit.2 The memorandum required the
contractor to provide a letter of authorization from the contracting officer that stated the
level of health care authorized and the entity responsible for payment of the bill. In
addition, the memorandum required the Military Departments to establish policies for
eligibility, billing, and collections for deployed or nonfixed medical facilities. On June 4,
2008, DoD CFO revised the medical billing rates for inpatients and outpatients to $2,041
per day and $195 per visit, respectively.

The Defense Base Act (DBA) of 1941 required contractors to purchase workers’
compensation insurance for workers on overseas military bases. The law was expanded
to require coverage of contractors and subcontractors under almost any overseas contract
with any government agency. According to a memorandum, dated May 15, 2008, from


1
  Primary care includes inpatient and outpatient services, nonemergency evacuation, pharmaceutical
support, dental services, and other medical support as determined by appropriate military authorities based
on recommendations from the joint force command surgeon and existing capabilities of the forward-
deployed MTFs.
2
  A visit is an encounter with a privileged provider, which includes diagnostic imaging,
laboratory/pathology, and pharmacy provided at the medical facility. It does not include costs of services
or supplies ordered by the provider but furnished by an entity other than the deployed medical facility; for
example, a pharmacy order purchased by the patient in the open economy.


                                                     2
the House Committee on Oversight and Government Reform, for 90 percent of the DBA
insurance required in Iraq and Afghanistan, the premiums and other terms were
negotiated between the private contractors and the insurance companies while the costs
were paid by the Federal Government. DBA workers’ compensation benefits include
disability, medical, and death benefits for injury or death in the course of employment.
Injured contractor personnel are entitled to receive coverage for medical costs. Under the
DBA program, insurance companies and Federal taxpayers share the risks of contractor
injuries and deaths that occur overseas. Insurers pay the costs of injuries or deaths that
occur in the normal course of employment. The War Hazards Compensation Act of 1942
addresses possible compensation by the United States in the case of injury or death
resulting from injury that "proximately results from a war-risk hazard."

Review of Internal Controls
We determined that DoD had a material internal control weakness as defined by DoD
Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006. DoD did not have clearly defined roles and responsibilities for
implementing and overseeing a billing and collection process for health care provided to
contractors by MTFs in Southwest Asia. Also, no DoD Component had accepted
responsibility as the proponent for this issue. Until roles and responsibilities are defined
and a proponent is designated, we cannot determine who is responsible for this material
internal control weakness. Implementing Recommendation 2. should improve internal
controls for billing contractors for health care provided by MTFs in Southwest Asia.




                                              3
Finding. Adequacy of the Contract Terms
and Controls Over Billing for Health Care
Provided to Contractors in Southwest Asia
Contract terms for health care provided by MTFs to contractors in Southwest Asia were
not adequately addressed. Based on a statistical sample of 2,561 DoD contracts, we
projected that 1,383, or 54 percent of the contracts had health care terms that were vague
and subject to interpretation, or were silent on health care terms. DoD controls over
billing and collections for health care provided to contractors by MTFs in Southwest Asia
were inadequate. Specifically, no DoD Component had responsibility for billing and
collecting payment, and DoD did not have clearly defined roles and responsibilities for
implementing and overseeing a billing and collection process. MTFs in Southwest Asia
may have provided health care billable in the millions without seeking reimbursement.3
Two medical units at Baghdad and Bagram, which are responsible for the largest total
number of contractor patient visits, reported that contractor health care was a burden on
their staff. For example, the medical unit in Baghdad stated that at least 33 percent of its
outpatient visits were contractors and that the unit was not staffed to support this
workload.

Contract Terms for Health Care Provided to Contractors
in Southwest Asia Were Vague and Subject to
Interpretation
Contract terms for health care provided by MTFs to contractors in Southwest Asia were
not adequately addressed. USCENTCOM provided us with spreadsheets that listed each
DoD contract in Iraq and Afghanistan for second quarter FY 2008 with the number of
contractor personnel assigned to that contract. The spreadsheet showed 2,561 prime
contracts with about 137,200 contractor personnel estimated to be working in Iraq and
Afghanistan. The spreadsheet did not include contracts from other Federal entities, such
as the Department of State, Department of Justice, U.S. Agency for International
Development, or Department of Agriculture. To determine whether health care terms
were adequately addressed, we statistically sampled 88 contracts estimated by
USCENTCOM to have about 52,200 contractor personnel working in Iraq and
Afghanistan. We used the Electronic Document Access Web site to obtain the contracts
or requested the contracts from the responsible contracting officials.

We examined the 88 contracts to determine whether health care terms clearly addressed
the level of care the contractor personnel were authorized to receive at an MTF. We also
examined the contracts to determine whether they stated that the health care costs
incurred by the contractor personnel were reimbursable to DoD.




3
    We did not project a monetary benefit. See p. 20, “Use of Computer-Processed Data” for more details.


                                                      4
Based on the sample, we projected the number of contracts that:

        clearly addressed health care authorized as emergency care only and costs
         reimbursable to DoD (adequately addressed health care terms), and

        were vague and subject to interpretation on health care authorized or silent on
         health care (did not adequately address health care terms).

See Table 1 for the statistical sample projections over the universe of 2,561 contracts.
See Appendix B for more details on our statistical sample projections. See Appendix C
for specific health care terms listed in the contracts.

                     Table 1. Projection of Clear and Vague Contractsa
                  Health Care Terms                        Contracts

                                                   Number              Percentage
       Emergency care authorized;                   1,178                  46
       reimbursement required
       Vague and subject to interpretation,          1,383                  54
       or silent on health care
       Total                                         2,561                  100
         a
             2nd quarter, FY 2008.

Of the 88 contracts sampled, we identified 46 contracts that stated only emergency care
was authorized and all costs were reimbursable to DoD; these contracts adequately
addressed health care terms. We identified 19 contracts that had health care terms that
were vague and subject to interpretation. We identified 23 contracts that were silent on
health care terms.

Contracts that do not clearly address health care coverage and reimbursement may leave
the Government at risk of an incorrect interpretation. The following are examples of
vague contract terms.

        Contract Number W91B4N-08-M-0565 has three inconsistent clauses that address
         contractor health care. One states that: “The government will provide any and all
         medical services required as a result of injuries incurred in the performance of this
         contract. If injured on duty, personnel shall receive emergency treatment.”
         Another clause states: “Lodging, meals and basic services will be provided as will
         basic medical, optical and dental services on a space available basis.” Lastly, the
         “Clauses Incorporated by Full Text” section of the contract states: “Contract
         performance may require work in dangerous or austere conditions. Except as
         otherwise provided in the contract, the Contractor accepts the risks associated
         with required contract performance in such operations.” The contract did not
         address cost reimbursement. USCENTCOM informed us that there was only one
         contractor performing under this contract.



                                               5
       Contract Number W91B4L-08-C-0026 states, “The contractor will provide
        emergent medical treatment in order to prevent undue suffering or loss of life.”
        The contract does not address health care coverage and reimbursement to DoD.
        USCENTCOM informed us that there were 75 contractor personnel performing
        under this contract.

       Contract Number W91GFC-08-M-0467 states, “Life Support: IAW AR 600-700
        the government will not provide life support services to U.S. contractor personnel
        equivalent to those provided to military personnel. Specific services provided:
        NONE.” The clause referred to U.S. contractor personnel, yet USCENTCOM
        informed us that there were 10 host nation personnel performing under this
        contract. Care to be provided to host nation personnel is not addressed.

Because we did not visit MTFs in Southwest Asia, we could not trace the letters of
authorization to the contracts to compare health care terms.4 However, on
August 13, 2007, the Commanding General, Joint Contracting Command-
Iraq/Afghanistan issued a memorandum stating, “…Vague contract language has resulted
in Letters of Authorization that have obligated the DoD to provide primary health care for
numerous contractors, who contractually are not authorized routine health care services at
MTFs.”

The Under Secretary of Defense for Acquisition, Technology, and Logistics
(USD[AT&L]) should require DoD Components to include controls in the standard
operating procedures to ensure that new and existing contracts and letters of authorization
include terms that adequately address health care coverage and reimbursement.
USD(AT&L) should also perform a review to verify that contracts for contractor
personnel that are deployed outside the United States include terms that adequately
address health care coverage and reimbursement to DoD. Also, the Assistant Secretary
of Defense (Health Affairs) (ASD[HA]) officials suggested the contractor personnel’s
letter of authorization include DBA insurance billing information, health insurance
billing information (if applicable), or both. USD(AT&L) should consider coordinating
with other Federal entities writing contracts in support of Southwest Asia operations to
emphasize the importance of adequately addressing health care coverage and
reimbursement to DoD.

Absence of Controls for Billing and Collecting
Payment From Contractors for Health Care Provided in
Southwest Asia
The MTFs in Southwest Asia did not bill contractor organizations, DBA insurance
companies, health insurance companies, or contractor personnel for health care provided
at the MTFs. These MTFs did not have a billing and collection process for the contractor
to reimburse DoD.


4
 See Appendix A, “Scope Limitations,” p. 19 for more details on why we did not visit MTFs in Southwest
Asia.


                                                  6
In September 2008, we sent questionnaires to medical units that command MTFs in the
following locations:

       Baghdad, Iraq
       Bagram Air Base, Afghanistan
       Joint Base Balad, Iraq
       Mosul, Iraq
       Tikrit, Iraq
       Al Asad, Iraq
       Camp Bucca, Iraq
       Camp Cropper, Iraq
       Camp Arifjan, Kuwait

The questionnaires requested responses about the (1) number of contractor personnel
treated by the medical units, (2) additional burden contractor personnel placed on the
medical unit staff, (3) commercial clinics available to provide care, and (4) billing and
reimbursement for health care provided to contractors.

Health Care Provided to Contractors by Medical Units in
Southwest Asia
We requested medical units in Southwest Asia to provide us with average contractor
personnel visits per month by inpatient visits and outpatient visits. See Table 2.

     Table 2. Average Monthly Contractor Health Care Visits by MTF Location
           MTF Location              Inpatient Visits         Outpatient Visits
Baghdad                                     54                      998
Bagram Air Base                             18                      359
Joint Base Balad                            45                      134
Mosul                                        9                       75
                  a
Tikrit and Al Asad                          14                       51
                             a
Camp Bucca and Camp Cropper                  4                      100
              b
Camp Arifjan                                 3                       46
Total                                      147                     1,763
Note: See “Reporting of Health Care Provided to Contractors” for specifics on the accuracy of the data.
When we received contractor visit data for more than one month from a medical unit, we calculated the
monthly average.
a
  These medical units reported inpatient and outpatient statistics together.
b
  Camp Arifjan inpatient and outpatient contractor statistics include some U.S. Government civilians.

According to responses, the MTFs in Baghdad and Bagram were the two busiest medical
units for outpatient visits by contractor personnel. In response to the question about
whether contractor workload was a burden to the medical units, both Baghdad and
Bagram considered it a burden to provide health care to contractor personnel.
Specifically, the medical unit in Baghdad stated that at least 33 percent of its outpatient


                                                    7
visits were contractors and that the unit was not staffed to support this workload. The
medical unit in Bagram stated that its unit was staffed for surgical and trauma
resuscitations and that contractor personnel tended to have more chronic medical
conditions, which became a burden when specialty care had to be arranged.

The MTFs provide treatment to the wounded as well as patients with illnesses. The
following are examples of inpatient care provided by MTFs to contractor personnel in
Iraq and Afghanistan.

      A patient was admitted for 2 billable days
       with chest pain and diagnosed with a heart
       attack. The patient had a history of high
       blood pressure and coronary artery disease
       with stent placement. The patient was
       stabilized and evacuated to Landstuhl
       Regional Medical Center, Germany.

      A patient accidentally shot own foot and
       was hospitalized for 16 billable days.

      A patient suffered a blast injury and was
       hospitalized for 29 billable days.

      A patient suffered a clot in the leg after an
       airplane flight and was hospitalized for 17
       billable days.

      A patient suffered from pneumonia and was
       hospitalized for 10 billable days.

The MTFs could have billed $141,340 for the contractor patient visits above; however,
nothing was billed.

On May 5, 2007, the Commander, Multi-National Forces-Iraq issued a memorandum to
the ASD(HA) about the extent of contractor health care services in Iraq and the impact on
the MTFs. The Multi-National Forces-Iraq Commander stated that the MTFs have
limited capability to provide primary care services in-theater, and when health care is
provided to contractor personnel, it places increased demands on the MTFs and consumes
precious resources that should be used in providing care to coalition military forces. On
August 28, 2007, the ASD(HA) replied that the Deputy Assistant Secretary of Defense
for Force Health Protection and Readiness would explore options for both long-term and
short-term solutions. As of April 22, 2009, ASD(HA) had not responded to the Multi-
National Forces Iraq Commander.




                                              8
Commercial Health Care in Southwest Asia
According to medical unit responses, contractor personnel were able to seek health care
at contractor clinics, except at Balad and Bagram. For example, Baghdad’s International
Zone has clinics operated by contractors, some of which may provide care to other
contractors’ personnel. Xe (formerly called Blackwater Worldwide) had a clinic that
provides health care to contractors regardless of affiliation, charging $150 per visit. In
addition, a medical unit stated that KBR Inc. had two clinics that provide routine and
emergency care to its contractor personnel and emergency care to non-KBR contractor
personnel. We requested the costs billed to DoD for the operation of KBR’s clinics from
the U.S. Army Sustainment Command. The Army informed us that KBR’s clinic costs
are not tracked because they are not a specific contract line item. In summary, some of
the larger contractors have primary care facilities in Iraq, while employees of smaller
contractors do not have primary care available unless they are able to obtain it, for a fee,
at one of the larger contractor organization’s clinics.

Contractor Reimbursement
Based on survey responses, none of the medical units in Southwest Asia billed and
collected from contractors for health care services provided. MTF personnel stated that
they did not have a billing and collection process in place, nor the proper staff to perform
billing and collections for health care provided to contractors. One of the medical units
stated that a process to account for contractors needs to be in place before billing can
occur. Another medical unit responded that it was not in the best interest of the mission
to handle billing for contractor employee health care. Nevertheless, during the audit,
USCENTCOM Surgeon officials informed us that they want to bill contractors for health
care provided, but they need specific guidance on how to implement a billing and
collection process in Southwest Asia.

To determine the potential monthly billings for contractor inpatient and outpatient visits
by MTF location, we multiplied the visit data from Table 2 by the current inpatient and
outpatient rates of $2,041 per day and $195 per visit, respectively. We determined the
average inpatient stay was about 3 days. Our calculations resulted in potential inpatient
monthly billings of $900,081 and potential outpatient monthly billings of $343,785,
which results in total potential monthly billings of $1,243,866. See Figure 1 for potential
billing details by MTF location. See Appendix D for more details on potential average
monthly billings for contractor health care.




                                             9
      Figure 1. Potential Average Monthly Inpatient and Outpatient Billings for
                            Contractors by MTF Location

                            Camp Bucca & Camp          Camp Arifjan, $27,339
                              Cropper, $43,992
                             Mosul, $69,732
                       Tikrit & Al Asad,
                            $95,667
                                                                         Baghdad, $525,252


                  Bagram Air Base,
                      $180,219




                                   Joint Base Balad,
                                        $301,665




Note: See “Reporting of Health Care Provided to Contractors” for specifics on the accuracy of the data.

Reporting of Health Care Provided to Contractors
To determine the extent of health care provided by MTFs to contractors in Southwest
Asia, we requested that ASD(HA) provide data from the Theater Medical Data Store on
inpatient stays and outpatient visits from January 4, 2007, through July 31, 2008. We
tested the database by comparing it to inpatient hard copy records. Specifically, we
reviewed 211 patients who had 237 inpatient stays stored on 297 database entry lines in
the Theater Medical Data Store. Some of the patients had more than one admission on
one database entry line. We identified the following discrepancies:

        Patients incorrectly identified as contractors - 13% (27/211)
        Duplicate entries in database - 22% (65/297)
        Admission and/or discharge date discrepancy between database and hard copy
         record - 25% (60/237)

Officials responding to our questionnaire told us that contractors were frequently
categorized as “other” rather than contractors. If so, the database for contractors
receiving health care in Southwest Asia could be significantly understated. For these
reasons, we did not rely on the database. Further, we questioned the accuracy of the
MTF responses to our questionnaire because many of them were based on data from this
database. We did not use the MTF estimates of inpatient and outpatient visits for
projecting potential monetary benefits because they were not reliable.

Roles and Responsibilities for Implementation and Oversight
No DoD Component had accepted responsibility as the proponent for billing and
collecting for health care provided to contractors by MTFs in Southwest Asia, and DoD


                                                        10
did not have clearly defined roles and responsibilities. During the audit, we discussed
who should be the proponent for implementation and oversight with the following DoD
Components:

      DoD CFO
      ASD(HA)
      USCENTCOM
      Army, Navy, and Air Force Comptroller Offices
      Joint Staff, J-4 Logistics
      U.S. Army Medical Command
      U.S. Air Force Medical Operations Agency
      U.S. Navy, Bureau of Medicine and Surgery

Each of these DoD Components stated that from their interpretation of existing guidance,
they were not the proponent for this initiative. For instance, several officials from the
DoD medical community stated that this was a Comptroller issue because the ASD(HA)
and Service Surgeons General do not manage medical resources that are deployed in a
contingency operation. For that reason, according to an ASD(HA) official, the Uniform
Business Office in the ASD(HA) developed the billing rates for deployed medical
facilities and requested the DoD CFO to approve the billing rates and to task the Service
Comptrollers with developing implementing guidance within 90 days. The DoD CFO
issued a memorandum to that effect on January 4, 2007, and then again on June 4, 2008,
with revised billing rates.

As of December 2008, the Service Comptrollers had not developed implementing
guidance for billing contractors receiving health care at deployed MTFs. According to
Army and Air Force Comptroller officials, they do not have oversight of this issue.
According to a Navy Comptroller official, the Navy delegated the responsibility to the
Fleets; however, it had not received implementing guidance from the Fleets.

On November 3, 2008, we held a meeting with Defense Finance and Accounting Service
(DFAS) and DoD CFO officials, in which a DFAS official requested that the involved
DoD Components meet to discuss a solution for implementing a system for billing
contractors for health care provided by MTFs in contingency operations. Subsequently,
DoD CFO officials organized a working group that has met several times with officials
from USD(AT&L), USCENTCOM, ASD(HA), Joint Staff, DFAS, and the Military
Departments.

We believe that the DoD CFO should continue to chair this working group to determine
roles and responsibilities and to develop specific policy for implementing and overseeing
a billing process in Southwest Asia. The group should include officials from
USD(AT&L), USCENTCOM, ASD(HA), DFAS, Joint Staff, and Military Departments.




                                           11
The working group should, at a minimum:

          Establish clearly defined roles and responsibilities for implementing and
           overseeing a process for billing and collecting from contractors receiving health
           care at MTFs in Southwest Asia, including the assignment of a DoD functional
           proponent.
          Establish procedures for identifying eligibility for care, level of care to be
           provided, and reimbursement requirements based on information obtained in the
           letter of authorization.
          Establish procedures for accurately capturing information needed to bill and
           collect payment, including, at a minimum, contractor organization, contract
           number, patient category, treatment dates, and health care provided.
          Determine which DoD Component will do the billing and collection. Consider a
           centralized billing function.
          Ensure the billing system provides the capability to bill the contractor personnel,
           their employer, their health insurance provider, and their DBA insurance provider.
           Consider initial billing to the contractor organization.
          Establish a process to bill for health care provided in prior years to contractors.
          Determine which DoD Components may retain and use any of the collected funds
           from billing for health care provided by MTFs to contractors.
          Establish procedures and frequency for financial reporting of billing and
           collecting from contractors in Southwest Asia.
          Consult with DBA insurance providers to ensure claims are processed properly.
          Determine how often the billing rates will be reevaluated.
          Consider a solution that will work in other contingency operations.
          Include policy, procedures, and standards in the Uniform Business Office Manual
           6010.15-M or other appropriate formal guidance.
          Develop a timeline to implement the billing and collection system in Southwest
           Asia.

Our audit revealed a material internal control weakness because DoD did not have clear
roles and responsibilities for implementing and overseeing a billing and collection
process for health care provided to contractors by MTFs in Southwest Asia, and no DoD
Component had accepted responsibility as the proponent for this issue.

Conclusions
Contracts that do not clearly address health care coverage and reimbursement may leave
the Government at risk of an incorrect interpretation. As a result, MTFs may have
provided unauthorized health care. MTFs in Southwest Asia may have provided health
care billable in the millions, without seeking reimbursement.5 DoD needs to clearly
define roles and responsibilities for implementing and overseeing a billing and collection
process. Lastly, many contractors have DBA insurance, through which the government


5
    We did not project a monetary benefit. See p. 20, “Use of Computer-Processed Data” for more details.


                                                     12
reimburses the contractor for the premiums, which may pay for health care procedures in
Southwest Asia. We believe that billing for health care provided by MTFs to contractors
would provide additional resources to be used to support the troops.

Management Actions
During the audit, officials from DoD CFO, USD(AT&L), ASD(HA), USCENTCOM,
DFAS, Joint Staff, and Military Departments established a working group to discuss how
to implement a billing and collection process in contingency operations. The working
group is trying to determine who will manage and fund the billing and collection process,
and it is developing a draft conceptual plan. DoD CFO has agreed to chair the working
group.

Recommendations, Management Comments, and
Our Response
1. We recommend that the Under Secretary of Defense for Acquisition,
   Technology, and Logistics:

       a. Require DoD Components to include controls in their standard operating
          procedures to ensure that new and existing contracts and letters of
          authorization include terms that adequately address health care coverage
          and reimbursement.
       b. Add the requirement that letters of authorization include the individual’s
          Defense Base Act insurance billing information, other health insurance
          billing information, or both.
       c. Perform a review to verify that contracts for contractor personnel that
          are deployed outside the United States include terms that adequately
          address health care coverage and reimbursement to DoD.
       d. Coordinate with other Federal entities writing contracts in support of
          Southwest Asia operations to emphasize the importance of adequately
          addressing health care coverage and reimbursement to DoD.

Under Secretary of Defense (Acquisition, Technology, and
Logistics) Comments
The Deputy Under Secretary of Defense for Logistics and Materiel Readiness provided
comments for USD(AT&L). The Deputy Under Secretary agreed and stated that
contingency contracting policy and procedures have been developed to address concerns
in our report. Every contracting activity must comply with Joint Contracting Command-
Iraq/Afghanistan acquisition instruction to ensure unity of effort and rapid support to the
warfighter. Also, a pilot program has been established to provide point of service
scanning capability at four MTFs in USCENTCOM’s area of responsibility to capture
contractor personnel usage at the MTFs.




                                            13
Chief of Staff, U.S. Central Command Comments
Although not required to comment, U.S. Forces-Afghanistan agreed with comment,
stating that letters of authorization need to be specific about authorized health care
entitlements.

Assistant Secretary of Defense (Health Affairs) Comments
Although not required to comment, ASD(HA) agreed and stated that the need for
insurance information in the letters of authorization is critical for effective billing and
collections for health care provided to contractor personnel.

Our Response
The Deputy Under Secretary for Logistics and Materiel Readiness; Chief of Staff,
USCENTCOM; and ASD(HA) comments are responsive and no additional comments are
required.

2. We recommend that the Under Secretary of Defense (Comptroller)/DoD Chief
   Financial Officer chair the working group with officials from the Under Secretary
   of Defense for Acquisition, Technology, and Logistics; U.S. Central Command;
   Assistant Secretary of Defense (Health Affairs); Defense Finance and Accounting
   Service; Joint Staff; Assistant Secretary of the Army (Financial Management and
   Comptroller); Assistant Secretary of the Navy (Financial Management and
   Comptroller); Assistant Secretary of the Air Force (Financial Management and
   Comptroller); Surgeon General of the Army; Surgeon General of the Navy; and
   Surgeon General of the Air Force to implement a billing system that is practical
   for U.S. Central Command. The working group should, at a minimum:

       a. Establish clearly defined roles and responsibilities for implementing and
          overseeing a process for billing and collecting from contractors receiving
          health care at military treatment facilities in Southwest Asia, including
          the assignment of a DoD functional proponent.
       b. Establish procedures for identifying eligibility for care, level of care to be
          provided, and reimbursement requirements based on information
          obtained in the letter of authorization.
       c. Establish procedures for accurately capturing information needed to bill
          and collect payment, including, at a minimum, contractor organization,
          contract number, patient category, treatment dates, and health care
          provided.
       d. Determine which DoD Component will do the billing and collection.
          Consider a centralized billing function.
       e. Ensure the billing system provides the capability to bill the contractor,
          their employer, their health insurance provider, and their Defense Base
          Act insurance provider. Consider initial billing to the contractor
          organization.
       f. Establish a process to bill for health care provided in prior years to
          contractors.



                                              14
       g. Determine which DoD Components may retain and use any of the
          collected funds from billing for health care provided by military
          treatment facilities to contractors.
       h. Establish procedures and frequency for financial reporting of billing and
          collecting from contractors in Southwest Asia.
       i. Consult with Defense Base Act insurance providers to ensure claims are
          processed properly.
       j. Determine how often the billing rates will be reevaluated.
       k. Consider a solution that will work in other contingency operations.
       l. Include policy, procedures, and standards in the Uniform Business Office
          Manual 6010.15-M or other appropriate formal guidance.
       m. Develop a timeline to implement the billing and collection system in
          Southwest Asia.

Managements Comments on the Draft Report
We requested management comments from 12 DoD Components; however, three DoD
Components did not provide comments: DFAS; the Assistant Secretary of the Army
(Financial Management and Comptroller); and the Assistant Secretary of the Air Force
(Financial Management and Comptroller). Additionally, USD(AT&L) did not
specifically comment on this recommendation. We are not requesting comments from
USD(AT&L), DFAS, the Army Comptroller Office, or the Air Force Comptroller Office
because officials from these offices are participating in the medical billing working
group.

Under Secretary of Defense (Comptroller)/DoD Chief
Financial Officer Comments
The DoD CFO agreed and stated that staff will continue to chair the technical working
group seeking a common solution to the billing challenge. Also, the Under Secretary
stated that once the details of the new billing process are finalized, implementing
directions will be issued and codified in the DoD Financial Management Regulation.

Our Response
The DoD CFO comments are responsive and no additional comments are required.

Chief of Staff, U.S. Central Command Comments
The Chief of Staff, USCENTCOM partially agreed and recommended that contractor
employees be required to have health insurance for the entire time that they will be in
USCENTCOM’s area of responsibility and that bills be sent to the contractor employee’s
health insurance provider. USCENTCOM believes that billing the contractor
organization and the individual will increase the overall costs to the Government.

The Multi-National Forces-Iraq stated that the working group should consider using any
DoD best practices from other theaters before developing a billing process for Iraq.
Multi-National Forces-Iraq provided additional recommendations for the working group




                                          15
to consider, including the use of military veterinarians providing care to contractor
organizations’ animals and absorbing the cost of this care.

U.S. Forces-Afghanistan agreed with comments, stating that it had no issues at the macro
level; however, it would need additional personnel with the skills to perform the billing
function if it is implemented in theater. U.S. Forces-Afghanistan also stated that although
collected funds could be retained by the MTF, it believed these funds should go back to
the “line” component and be under the purview of the Comptroller.

Our Response
The Chief of Staff, USCENTCOM comments are responsive. The decision to bill the
health insurance, individual or company should be decided by the working group. We
note that there are differing opinions as to which DoD Component should receive
collected funds, and Recommendation 2.g. allows the working group to determine where
any collected funds should be retained. We also agree that existing best practices should
be considered by the working group when determining the solution. We did not perform
audit work on the provision of care to animals in Southwest Asia by military
veterinarians. However, we have contacted ASD(HA) and the Chair of the working
group and asked that they explore this issue. The actions planned and taken by
USCENTCOM satisfy the intent of the recommendation.

Assistant Secretary of Defense (Health Affairs) Comments
ASD(HA) agreed with comment, stating that representatives from the TRICARE
Management Activity Uniform Business Office have actively participated in a working
group chaired by the DoD CFO since its inception and would continue to do so.
ASD(HA) did not believe that policy for deployed medical units should be part of the
Military Treatment Facility Uniform Business Office Manual, DoD 6010.15-M, as the
focus of this regulation is exclusively on fixed medical and dental facilities funded by the
Defense Health Program appropriation.

Our Response
The ASD(HA) comments are responsive. Recommendation 2.l. allowed the Components
to consider Uniform Business Office Manual or other guidance to disseminate the new
policy. We believe the working group should select the most appropriate guidance to
use. No additional comments are required.

Vice Director, Joint Staff Comments
The Vice Director, Joint Staff agreed and stated that a medical billing process for
contractors has not yet been established in theater operations. The Vice Director stated
that the Joint Staff, the Office of the Deputy Assistant Secretary of Defense for Force
Health Protection and Readiness, and USCENTCOM had been collecting information on
the contractor health care issue since September 2008 and joined a working group led by
DoD CFO in December 2008. The “group has made huge steps toward achieving a
viable method for billing contractors” for health care provided by MTFs in theater.




                                             16
The Vice Director stated that any solution would be a learning experience, and would
likely create personnel and workload issues. Additionally, the Vice Director informed us
that electronic devices are being installed in Southwest Asia to monitor contractor use at
MTFs. Lastly; the Vice Director recommended that DoD conduct a review of current
policies regarding contractor health care in overseas contingency operations.

Our Response
The Vice Director, Joint Staff, comments are responsive and no additional comments are
required.

Department of the Army Comments
The Chief of Staff, U.S. Army Medical Command agreed with comment, stating that a
centralized billing function should be considered rather than make this the responsibility
of MTFs, which do not have the resources for a billing and collecting function. Also, the
amounts collected should reimburse the deployed/contingency medical unit that provides
the care; however, if there is centralized billing, that entity may need to recover its costs.

The Chief of Staff recommended the billing rates continue to be revaluated annually.
Additionally, the Chief of Staff recommended that the new contractor health care billing
guidance not be included in the Uniform Business Office Manual as the policy in this
manual does not apply to deployed/contingency medical units.

Our Response
The Chief of Staff, U.S. Army Medical Command, comments are responsive. We agree
that a centralized billing function should be considered and Recommendation 2.d. states
this. We note that there are differing opinions as to which DoD Component should
receive collected funds, and Recommendation 2.g. allows the working group to determine
where any collected funds should be retained. Recommendation 2.l. allows the working
group to select the most appropriate guidance to use to include contractor health care
billing policy. No additional comments are required.

Department of the Navy Comments
The Acting Assistant Secretary of the Navy (Financial Management and Comptroller)
agreed with comment, providing a joint response for the Assistant Secretary of the Navy
(Financial Management and Comptroller) and the Surgeon General of the Navy. The
Acting Assistant Secretary stated the process for billing and collecting for health care
provided to contractors by deployed/nonfixed MTFs in contingency operations should be
standardized across the DoD, rather than have each component implement the process
independently.

Our Response
The Acting Assistant Secretary of the Navy (Financial Management and Comptroller)
comments are responsive and no additional comments are required.




                                              17
Department of the Air Force Comments
The Air Force Surgeon General agreed and stated that its staff is actively participating in
the working group as recommended in the draft report.

Our Response
The Air Force Surgeon General comments are responsive and no additional comments
are required.




                                            18
Appendix A. Scope and Methodology
We conducted this performance audit from July 2008 through April 2009 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our finding and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our finding and
conclusions based on our audit objectives.

We contacted officials from the Department of Labor, USD(AT&L), DoD CFO,
ASD(HA), Military Department Assistant Secretaries for Financial Management and
Comptroller, U.S. Central Command, Joint Staff, and Military Department Surgeons
General, Defense Contracting Audit Agency, Defense Finance and Accounting Service,
U.S. Army Materiel Command, Defense Manpower Data Center, U.S. Army Corps of
Engineers, Air Force Center for Engineering and the Environment, U.S. Special
Operations Command, and U.S. Southern Command.

We reviewed public laws, DoD policy, DoD memoranda, and a USCENTCOM
fragmentary order to identify requirements for contract health care terms and billing
contractors for health care provided by MTFs in Southwest Asia. Specifically, we
reviewed DoDI 3020.41, “Contractor Personnel Authorized to Accompany the U.S.
Armed Forces”; DoD CFO memos from January 7, 2007, and June 4, 2008, “Medical
Billing Rates for Other Than Foreign Military Personnel Utilizing DoD Deployed/Non-
Fixed Facilities”; and USCENTCOM Fragmentary Order 09-1038, “Contractor Care In
the USCENTCOM [Area of Responsibility].” We also reviewed USD(AT&L)
memorandum, “Contractor Healthcare Services-Defense Contractors Outside the United
States,” September 17, 2007; MNF-I correspondence to ASD(HA), “Status of and
Recommendations for Contractor Healthcare Services in the Iraqi Theater of Operations”;
42 United States Code §1651, “Compensation for Disability or Death to Persons
Employed at Military, Air, and Naval Bases Outside United States”; and Defense Federal
Acquisition Regulation Supplement 252.225-7040, “Contractor Personnel Authorized to
Accompany U.S. Armed Forces Deployed Outside the United States.”

Scope Limitations
We submitted questionnaires to medical units that command MTFs in Southwest Asia in
September 2008 to gather information on contractor workload, additional burden
contractor personnel placed on the medical staff, availability of commercial clinics, and
billing and reimbursement for health care provided to contractors. To verify the medical
officials’ responses, we requested permission to perform site visits to MTFs in Southwest
Asia during November 2008. USCENTCOM stated that it could not accommodate
another DoDIG visit to Iraq in November. As a result, we were unable to visit and
physically verify the responses from the medical officials at MTFs in Southwest Asia.

USCENTCOM provided us with spreadsheets that listed contracts in Iraq and
Afghanistan for the second quarter of FY 2008. The spreadsheets included the number of


                                           19
contractor personnel performing work in Southwest Asia. We did not verify the accuracy
of the spreadsheets because of time constraints and our inability to visit Southwest Asia
in a timely fashion. Therefore, the spreadsheets upon which we relied might be
inaccurate. However, our conclusion would be the same based on the results of the
contracts we reviewed.

Because medical records available to us did not have the contract number for contractor
personnel treated, we were unable to trace contracts from our statistical sample to
contractor patient visits. Therefore, we were unable to determine whether contractor
personnel were receiving unauthorized health care.

Use of Computer-Processed Data
We used computer-processed data obtained from the Theater Medical Data Store, a
database managed by ASD(HA). We tested the reliability of the inpatient data entries to
scanned hard-copy records obtained from the U.S. Army Medical Command, Patient
Administration Systems and Biostatistics Activity. We encountered duplicate entries on
inpatient stays, discharge dates that occurred before admission dates, and numerous
instances of incorrect admission and discharge dates. We also identified numerous
duplicate entries for outpatient visits in the database and were told by officials responding
to our questionnaire that contractors were frequently categorized as “other” rather than as
contractors in the database. Further, we questioned the accuracy of the MTF responses to
our questionnaire because many of them were based on data pulled from this database.
We concluded that we could not rely on these data to project a potential monetary benefit
for billing for health care provided to contractors at the MTFs in Southwest Asia.
However, we used the MTF responses to the questionnaire to provide an estimate of the
magnitude of the problem because their responses were the best data available. Monetary
benefits will be quantified after a billing and collection process has been implemented
worldwide. We plan to track monetary benefits during the audit follow-up process.

Use of Technical Assistance
The DoD OIG Quantitative Methods and Analysis Division (QMAD) assisted with the
audit. See Appendix B for detailed information about the work the Division performed.
In addition, we received legal opinions from the DoDIG Office of General Counsel
dealing with contract health care terms and the roles and responsibilities of DoD
Components.

Prior Coverage
We found no coverage on the billing and collections for health care provided to
contractors in Southwest Asia during the last 5 years.




                                             20
Appendix B. Statistical Sample
With the assistance of the QMAD, we used a statistical sample to project whether
contract terms for health care provided by MTFs to contractors in Southwest Asia were
adequately addressed.

Sample Plan
The original database provided by USCENTCOM had 2,782 contracts from Iraq and
Afghanistan. From the 2,782 unique contracts, QMAD developed a stratified sample
design based on the number of employees assigned to each contract. QMAD drew a
sample of 107 contracts.

After we reviewed the 107 contracts, we found that the population of 2,782 contracts
from which the sample was drawn was a mixture of prime contracts, subcontracts, and
other type actions. Because we intended to report the results based only on prime
contracts, we identified the 2,561 prime contracts out of the total 2,782 contracts.
QMAD used the new population of 2,561 prime contracts for all projection purposes.

Of the original sample of 107 contracts, 88 corresponded to the new population of
2,561 prime contracts. QMAD used the sample of 88 prime contracts as a basis for the
projections over the population of 2,561 prime contracts. Table B.1 provides details of
the stratified design and sample data used in the analysis.

                        Table. B.1. Details of Stratified Design
Number of Employees              Stratum Population                     Sample
More than 1,000                            15                             15
100 to 1,000                              222                             30
10 to 99                                 1,281                            29
1 to 9                                    999                              9
Zero                                       44                              5
Total                                    2,561                            88

Statistical Projection
We reviewed the contracts from the sample and assigned them to the applicable
categories defined below:

      emergency care authorized; reimbursement required;
      vague and subject to interpretation; and
      silent on health care terms.

QMAD calculated two sets of statistical projections using a 90-percent confidence level.

   1. For the positive results, the contracts that adequately addressed the health care
      terms; and


                                           21
   2. For the negative results, the contracts that did not adequately address health care
      terms.

The contracts that adequately addressed contract terms (46) are those classified as
“emergency care authorized; reimbursement required,” and those that did not adequately
address contract terms (42) as “vague and subject to interpretation” or “silent on health
care terms.” QMAD calculated the following projections based on the audit results. See
Table B.2.

                         Table B.2. Sample Projection Details
                                   Positive Results
Contract terms             Lower Bound          Point Estimate           Upper Bound
adequately addressed
Number of contracts              736                   1,178                 1,620
Success rate                    28.7%                  46.0%                 63.2%

                                  Negative Results
Contract terms not          Lower Bound       Point Estimate             Upper Bound
adequately addressed
Number of contracts              941                   1,383                 1,825
Error rate                      36.8%                  54.0%                 71.3%


Interpretation of Results
The positive results can be interpreted as follows. From the population of 2,561 prime
contracts, we are 90-percent confident that the number of contracts that adequately
address health care terms is between 736 and 1,620 contracts, and the success rate is
between 28.7 percent and 63.2 percent. The point estimate is 1,178 contracts that
adequately address health care terms, or 46 percent.

The negative results can be interpreted as follows. From the population of 2,561 prime
contracts, we are 90-percent confident that the number of contracts that do not adequately
address health care terms is between 941 and 1,825 contracts, and the error rate is
between 36.8 percent and 71.3 percent. The point estimate is 1,383 contracts that do not
adequately address health care terms, or 54 percent.




                                           22
Appendix C. Health Care Contract Terms by
Specific Contract
    Commanda           Contract Numberb              Countryc        Health Care Terms Listed
                                                                         in the Contractd
                                                                    Emergency care authorized;
     AFCEE            FA8903-04-D-8677/0083             Iraq        reimbursement required
                                                                    Emergency care authorized;
     AFCEE            FA8903-06-D-8510/0004             Iraq        reimbursement required
                                                                    Emergency care authorized;
     AFCEE            FA8903-06-D-8511/0013             Iraq        reimbursement required
                                                                    Emergency care authorized;
     AFCEE            FA8903-06-D-8511/0026             Iraq        reimbursement required
                                                                    Emergency care authorized;
     AFCEE            FA8903-06-D-8511/0039             Iraq        reimbursement required
                                                                    Emergency care authorized;
     AFCEE            FA8903-06-D-8513/0022             Iraq        reimbursement required
                                                                    Emergency care authorized;
     AFCEE            FA8903-06-D-8515/0011             Iraq        reimbursement required
                                                                    Emergency care authorized;
      AMC               DAAA09-02-D-0007                Iraq        reimbursement required
                                                                    Emergency care authorized;
      AMC                W52P1J-07-D-0009               Iraq        reimbursement required
                                                                    Emergency care authorized;
      AMC               W56HZV-05-G-0005                Iraq        reimbursement required
                                                                    Emergency care authorized;
      AMC              W56HZV-07-C-0295                 Iraq        reimbursement required
     JCC-I/A          W91B4K08C0003P00002            Afghanistan    Vague and subject to interpretation
                                                                    Emergency care authorized;
     JCC-I/A             W91B4K08C0029               Afghanistan    reimbursement required
     JCC-I/A             W91B4L06A0039               Afghanistan    Silent on health care terms
     JCC-I/A             W91B4L07M0022               Afghanistan    Silent on health care terms
     JCC-I/A             W91B4L08C0026               Afghanistan    Vague and subject to interpretation
     JCC-I/A             W91B4L08C0030               Afghanistan    Vague and subject to interpretation
     JCC-I/A             W91B4M05P3548               Afghanistan    Silent on health care terms
     JCC-I/A             W91B4M07C4026               Afghanistan    Vague and subject to interpretation
                                                                    Emergency care authorized;
     JCC-I/A             W91B4M07C4155               Afghanistan    reimbursement required
     JCC-I/A             W91B4M07C7116               Afghanistan    Vague and subject to interpretation



a
  Commands listed: Air Force Center for Engineering and the Environment (AFCEE); U.S. Army Materiel
Command (AMC); Joint Contracting Command-Iraq/Afghanistan (JCC-I/A); U.S. Special Operations
Command (USSOCOM); and U.S. Army Corps of Engineers (USACE)
b
  This list of contracts is per a spreadsheet provided by USCENTCOM on August 11, 2008.
c
  Documents the country where the contractor personnel are assigned.
d
  As of July 14, 2008.


                                                23
Commanda   Contract Numberb           Countryc      Health Care Terms Listed
                                                        in the Contractd
                                                    Emergency care authorized;
 JCC-I/A     W91B4M07D0002            Afghanistan   reimbursement required
 JCC-I/A   W91B4M07P1007P00004        Afghanistan   Silent on health care terms
 JCC-I/A    W91B4M07P4501P2           Afghanistan   Silent on health care terms
                                                    Emergency care authorized;
 JCC-I/A     W91B4M07P7173            Afghanistan   reimbursement required
 JCC-I/A     W91B4M07P7322            Afghanistan   Silent on health care terms
                                                    Emergency care authorized;
 JCC-I/A     W91B4M08C0010            Afghanistan   reimbursement required
 JCC-I/A     W91B4M08C7078            Afghanistan   Vague and subject to interpretation
                                                    Emergency care authorized;
 JCC-I/A     W91B4M08P0184            Afghanistan   reimbursement required
 JCC-I/A     W91B4N06A0068            Afghanistan   Silent on health care terms
                                                    Emergency care authorized;
 JCC-I/A     W91B4N07M0828            Afghanistan   reimbursement required
                                                    Emergency care authorized;
 JCC-I/A     W91B4N07M1676            Afghanistan   reimbursement required
                                                    Emergency care authorized;
 JCC-I/A     W91B4N08A0001            Afghanistan   reimbursement required
 JCC-I/A     W91B4N08M0565            Afghanistan   Vague and subject to interpretation
                                                    Emergency care authorized;
 JCC-I/A     W91B4N08M0594            Afghanistan   reimbursement required
                                                    Emergency care authorized;
 JCC-I/A     W91B4N08M0621            Afghanistan   reimbursement required
                                                    Emergency care authorized;
 JCC-I/A     W91B4P06C0090            Afghanistan   reimbursement required
                                                    Emergency care authorized;
 JCC-I/A   W91B4P06C0169P00005        Afghanistan   reimbursement required
                                                    Emergency care authorized;
 JCC-I/A     W91B4P07C0263            Afghanistan   reimbursement required
 JCC-I/A     W91B4P07C0313            Afghanistan   Silent on health care terms
 JCC-I/A     W91B4P07C0362            Afghanistan   Silent on health care terms
                                                    Emergency care authorized;
 JCC-I/A   W91B4P07C6015P00003        Afghanistan   reimbursement required
                                                    Emergency care authorized;
 JCC-I/A   W91B4P07C6018P00003        Afghanistan   reimbursement required
                                                    Emergency care authorized;
 JCC-I/A     W91B4P08C0012            Afghanistan   reimbursement required
                                                    Emergency care authorized;
 JCC-I/A     W91B4P08C0074            Afghanistan   reimbursement required
 JCC-I/A     W91B4P08C0173            Afghanistan   Vague and subject to interpretation
                                                    Emergency care authorized;
 JCC-I/A     W91B4P08C6004            Afghanistan   reimbursement required
                                                    Emergency care authorized;
 JCC-I/A     W91B4M07P7240            Afghanistan   reimbursement required
                                                    Emergency care authorized;
 JCC-I/A     W91GDW07A4004               Iraq       reimbursement required




                                 24
Commanda    Contract Numberb            Countryc   Health Care Terms Listed
                                                       in the Contractd
                                                   Emergency care authorized;
 JCC-I/A     W91GDW07C4042                Iraq     reimbursement required
                                                   Emergency care authorized;
 JCC-I/A     W91GDW07D4020                Iraq     reimbursement required
                                                   Emergency care authorized;
 JCC-I/A     W91GDW07D4021                Iraq     reimbursement required
                                                   Emergency care authorized;
 JCC-I/A     W91GDW07D4031                Iraq     reimbursement required
 JCC-I/A    W91GDW-08-M-0053              Iraq     Silent on health care terms
 JCC-I/A     W91GER07A0009                Iraq     Silent on health care terms
 JCC-I/A     W91GET06A5004                Iraq     Silent on health care terms
 JCC-I/A     W91GET08M0261                Iraq     Vague and subject to interpretation
 JCC-I/A     W91GET08M0405                Iraq     Vague and subject to interpretation
 JCC-I/A     W91GEU07MS026                Iraq     Silent on health care terms
                                                   Emergency care authorized;
 JCC-I/A      W91GEU07P1590               Iraq     reimbursement required
                                                   Emergency care authorized;
 JCC-I/A     W91GEU07P1910                Iraq     reimbursement required
 JCC-I/A     W91GEY08M0382                Iraq     Vague and subject to interpretation
                                                   Emergency care authorized;
 JCC-I/A      W91GF507A7063               Iraq     reimbursement required
                                                   Emergency care authorized;
 JCC-I/A      W91GF908D0001               Iraq     reimbursement required
                                                   Emergency care authorized;
 JCC-I/A      W91GF908M0224               Iraq     reimbursement required
                                                   Emergency care authorized;
 JCC-I/A     W91GFB07C2085                Iraq     reimbursement required
 JCC-I/A     W91GFB07M9079                Iraq     Silent on health care terms
 JCC-I/A     W91GFB08M9014                Iraq     Vague and subject to interpretation
 JCC-I/A     W91GFC08M0467                Iraq     Vague and subject to interpretation
 JCC-I/A     W91GFP07M0334                Iraq     Silent on health care terms
 JCC-I/A     W91GXE07M0282                Iraq     Silent on health care terms
 JCC-I/A     W91GXE08M0143                Iraq     Vague and subject to interpretation
                                                   Emergency care authorized;
 JCC-I/A      W91GY006D0009               Iraq     reimbursement required
 JCC-I/A      W91GY007C0053               Iraq     Vague and subject to interpretation
                                                   Emergency care authorized;
 JCC-I/A      W91GY007D0013               Iraq     reimbursement required
 JCC-I/A      W91GY007D0018               Iraq     Vague and subject to interpretation
                                                   Emergency care authorized;
 JCC-I/A     W91GY008C0015                Iraq     reimbursement required
 JCC-I/A     W91GY308C0012                Iraq     Vague and subject to interpretation
 JCC-I/A     W91GY308C0020                Iraq     Vague and subject to interpretation
           W912DY-04-D-0011 TO                     Emergency care authorized;
 USACE             0005                   Iraq     reimbursement required
 USACE     W912ER-04-D-0004-0017          Iraq     Vague and subject to interpretation




                                   25
Commanda   Contract Numberb        Countryc   Health Care Terms Listed
                                                  in the Contractd
                                              Emergency care authorized;
 USACE     W912ER-04-D-0005          Iraq     reimbursement required
 USACE     W917BE-07-C-0021          Iraq     Silent on health care terms
 USACE     W917BG-07-C-0033          Iraq     Silent on health care terms
 USACE     W917BG-07-C-0161          Iraq     Silent on health care terms
 USACE     W917BG-07-C-0166          Iraq     Silent on health care terms
 USACE     W917BK-06-P-0133          Iraq     Silent on health care terms
 USACE     W917BK-07-C-0085          Iraq     Silent on health care terms
USSOCOM    H92237-07-A-0601          Iraq     Silent on health care terms




                              26
Appendix D. Potential Average Monthly
Billings for Contractor Visits by Military
Treatment Facility Location
To determine the potential monthly billings for contractor inpatient and outpatient visits
by MTF location, we multiplied the visit data from Table 2 by the current inpatient and
outpatient rates of $2,041 per day and $195 per visit, respectively. We determined the
average inpatient stay was about 3 days. See Tables D.1, D.2, and D.3 for our billing
calculations.

    Table D.1. Average Monthly Contractor Inpatient Billings by MTF Location
        MTF Location      Contractor Visits           Current Rate                       Total Inpatient Billings
Baghdad                          54           X         $2,041       X   3 Days   =             $330,642
Bagram Air Base                  18           X          2,041       X   3 Days   =              110,214
Joint Base Balad                 45           X          2,041       X   3 Days   =              275,535
Camp Bucca & Camp Cropper        4            X          2,041       X   3 Days   =              24,492
Mosul                            9            X          2,041       X   3 Days   =              55,107
Tikrit & Al Asad                 14           X          2,041       X   3 Days   =              85,722
Camp Arifjan                     3            X          2,041       X   3 Days   =              18,369
Total                           147                                                             $900,081


   Table D.2. Average Monthly Contractor Outpatient Billings by MTF Location
        MTF Location      Contractor Visits             Current Rate                  Total Outpatient Billings
Baghdad                          998              X        $195           =                  $194,610
Bagram Air Base                  359              X         195           =                   70,005
Joint Base Balad                 134              X         195           =                   26,130
Camp Bucca & Camp Cropper        100              X         195           =                   19,500
Mosul                            75               X         195           =                   14,625
Tikrit & Al Asad                  51              X         195           =                    9,945
Camp Arifjan                      46              X         195           =                    8,970
Total                           1,763                                                        $343,785

 Table D.3. Total Potential Average Monthly Contractor Inpatient and Outpatient
                             Billings by MTF Location
                                                                                                  Inpatient &
                                                                                                  Outpatient
        MTF Location            Inpatient Billings            Outpatient Billings                    Billings
Baghdad                             $330,642              +       $194,610                 =        $525,252
Bagram Air Base                      110,214              +        70,005                  =         180,219
Joint Base Balad                    275,535               +        26,130                  =         301,665
Camp Bucca & Camp Cropper             24,492              +        19,500                  =          43,992
Mosul                                55,107               +        14,625                  =          69,732
Tikrit & Al Asad                     85,722               +         9,945                  =          95,667
Camp Arifjan                          18,369              +         8,970                  =          27,339
Total                               $900,081                      $343,785                         $1,243,866




                                                  27
Under Secretary of Defense (Acquisition, Technology, and
Logistics) Comments




                   Click to add JPEG file




                                  28
Click to add JPEG file




               29
Click to add JPEG file




               30
Click to add JPEG file




               31
Under Secretary of Defense (Comptroller)/DoD Chief
Financial Officer Comments




                   Click to add JPEG file




                                  32
U.S. Central Command Comments




                 Click to add JPEG file




                                33
Click to add JPEG file




               34
Click to add JPEG file




               35
Click to add JPEG file




               36
Click to add JPEG file




               37
Click to add JPEG file




               38
Assistant Secretary of Defense (Health Affairs) Comments




                   Click to add JPEG file




                                  39
Click to add JPEG file




               40
Click to add JPEG file




               41
Click to add JPEG file




               42
Click to add JPEG file




               43
The Joint Staff Comments




                   Click to add JPEG file




                                  44
Click to add JPEG file




               45
Department of the Army Comments




                  Click to add JPEG file




                                 46
Click to add JPEG file




               47
Click to add JPEG file




               48
Department of the Navy Comments




                  Click to add JPEG file




                                 49
Click to add JPEG file




               50
Click to add JPEG file




               51
Department of the Air Force Comments




                  Click to add JPEG file




                                 52
